WAIVER

Supreme Court, U.S.
FILED

DEC 3 1 2019
DFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATEs
Supreme Court Case No

19-734

Trina R. Patterson

v.

Select Portfolio Servicing, Inc., et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Quality Loan Service Corporation

0 I am a member of the Bar of the Supreme Court of the United States.

E I am not presently a me
will be filed by a Bar

of the
er.

of this Court. Should a response be requested, the response

Signature
Date.

December 31, 2019

(Type or print) Name

Matthew B. Learned, Esq.
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

McCarthy & Holthus, LLP

Address

411 Ivy Street

City & State
Phone

San Diego, CA

619-955-1549

Zip
Email

92101

mlearned@mccarthyholthus.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Trina R. Patterson, Petitioner

RECEv
JAN - 7 2U'a
OFFICE OF THE
SUPREME COURT.

